No. 20-86

In the
Supreme Court of the United States

Charles Daniels, Director,
Nevada Department of Corrections, et al.,
Petitioners,
v.
Ronald Ross,
Respondent.
On Petition for Writ of Certiorari
to the United States Court of Appeals
for the Ninth Circuit
Certificate of Service

Rene Valladares
Federal Public Defender,
District of Nevada
*Jonathan M. Kirshbaum
Assistant Federal Public Defender
411 E. Bonneville Ave., Ste. 250
Las Vegas, Nevada 89101
(702) 388-6577
Jonathan_Kirshbaum@fd.org
*Counsel of Record for Ronald Ross

I, Jonathan Kirshbaum, an attorney who is authorized to file a Brief in
Opposition on behalf of Respondent Ronald Ross, hereby certify that all parties
required to be served have been served on October 7, 2020, in accordance with Rule
28.4(a) and 29.3, one copy of the foregoing Brief in Opposition, Appendix, and Motion
for Leave to Proceed In Forma Pauperis by delivering said copy, on consent of
opposing counsel, through electronic mail to Heidi Parry Stern, Solicitor General, and
Jeffrey Connor, Assistant Solicitor General, Nevada Department of Justice, 100
North Carson Street, Carson City, NV 89701
Dated October 6, 2020
Respectfully submitted,
Rene L. Valladares
Federal Public Defender
/s/Jonathan M. Kirshbaum
Jonathan M. Kirshbaum
Assistant Federal Public Defender

1

